CERTIFICATE OF WORD COUNT
NO. TBD

Teresita A. Canuto,
Petitioner (s),
v.
Ltc. Troy Alexander, Et Al,
Respondent(s).
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.2 I certify that the Teresita A. Canuto
Petition for Writ of Certiorari contains fewer than 40 pages and 4171 words, including the parts
of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

$4^

Cnan Sexhar

July 17, 2020

SCP Tracking: Canuto-#30-Cover White

